 

Nos. 19-267, 19-348
In the Supreme Court of the United States

OuR LADY OF GUADALUPE SCHOOL, PETITIONER,
Vv

AGNES MORRISSEY-BERRU

St. JAMES SCHOOL, PETITIONER,
Vv

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE ESTATE OF KRISTEN BIEL

ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF PARTNERSHIP SCHOOLS AS AMICUS CURIAE IN SUPPORT OF
PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,468
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2020.

Sally L. Pei

601 Massachusetts Avenue, NW
Washington, DC 20001

(202) 942-5000
Sally.Pei@arnoldporter.com
